No.

IN THE

Jsmprimu.' (Enurt af the

States

Robert Ibarra,
Petitioner,

v.
W. L. Montgomery, Acting Warden,

Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
PETITION FOR A WRIT OF CERTIORARI

Cuauhtemoc Ortega
Federal Public Defender
Mark R. Drozdowski*
Michael D. Weinstein
Deputy Federal Public Defenders
321 East 2nd Street
Los Angeles, California 90012
Telephone: (213) 894-2854
Facsimile: (213) 894-0081
Mark_Drozdowski@fd.org
Attorneys for Petitioner
★Counsel of Record

QUESTION PRESENTED

Does the exclusion of statements by a co-perpetrator that he was solely
responsible for the charged murder and the defendant was innocent,

including the statement in open court that “I’m guilty of the murder and

[defendant] is not,” violate the defendant’s federal constitutional right to

present a defense at trial?

i

PARTIES AND LIST OF PRIOR PROCEEDINGS

The parties to this proceeding are Petitioner Robert Ibarra and
Respondent W.L. Montgomery, Warden. The California Attorney General
represents Respondent.

On July 1, 2011, Ibarra was convicted by jury of first degree murder in
People v. Ibarra, Santa Barbara County Superior Court case no. 1200303,
Judge Brian E. Hill, presiding. Petitioner’s Appendix filed concurrently

herewith (“Pet. App.”) 55, 86, 95-96. On July 23, 2012, Judge Hill sentenced
Ibarra to life without parole and entered judgment against him. Id.

The California Court of Appeal, per the Honorable Arthur Gilbert,

Kenneth R. Yegen, and Steven Z. Perren, affirmed the judgment on appeal in
an unpublished opinion filed on March 11, 2014 in People v. Ibarra, case no.

B243065. Pet. App. 86-95. The California Supreme Court denied Ibarra’s

petition for review on June 18, 2014 in case no. S217984. Pet. App. 85.
On April 6, 2017, United States Magistrate Jean Rosenbluth filed a
report recommending that Ibarra’s habeas corpus petition be denied in Robert
Ibarra v. W.L. Montgomery, Acting Warden, C.D. Cal. case no. CV 15-8772-

DMG-JPR. Pet. App. 53-84. On September 21, 2017, United States District

Judge Dolly M. Gee accepted the recommendation, denied Ibarra’s petition,
denied a certificate of appealability (“COA”), and entered judgment against

him. Pet. App. 48-52.

ii

On May 31, 2018, the Ninth Circuit, per the Honorable William A.
Fletcher and Paul J. Watford, granted a COA on the issue presented herein

in Robert Ibarra v. W.L. Montgomery, Acting Warden, case no. 17-56623.

Pet. App. 46-47. On November 23, 2020, the Ninth Circuit, per the
Honorable Daniel P. Collins and Kenneth Kiyui Lee, Circuit Judges, and the
Honorable Gregory A. Presnell, Senior United States District Judge for the
Middle District of Florida, sitting by designation, affirmed the judgment in

an unpublished opinion. Pet. App. 39-45.

iii

TABLE OF CONTENTS

PAGE
OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

4

4

I.

Pre-Trial and Trial

II.

State Appeal

18

HI.

Federal Habeas Action

20

REASONS FOR GRANTING THE WRIT

21

I.

AEDPA Standards

21

II.

Legal Principles Governing Ibarra’s Claim

22

HI.

The State Court Did Not Adjudicate the Merits of
Ibarra’s Claim and Therefore This Court Reviews the
Claim De Novo

25

IV.

The Court Should Grant Relief on De Novo Review

27

V.

Even Assuming the State Court Adjudicated the
Merits of the Claim, 28 U.S.C. § 2254(d) Does Not Bar
Relief Because the State Court Decision Is Contrary To
and an Unreasonable Application of Federal Law
and Is Also Based on an Unreasonable Determination
of the Facts

34

CONCLUSION

37

INDEX TO APPENDIX

38

APPENDIX

39

iv

TABLE OF AUTHORITIES

PAGE(S)

Federal Cases
Arizona v. Fulminante,
499 U.S. 279 (1991)

32

Brecht v. Abrahamson,
507 U.S. 619 (1993)

22

Brumfield v. Cain,
576 U.S. 305 (2015)

35

California v. Trombetta,
467 U.S. 479 (1984)..

23

Chambers v. Mississippi,
410 U.S. 284 (1973)...

9, 23, 32, 35

Clark v. Brown,
450 F.3d 898 (9th Cir. 2006)

23

Crane v. Kentucky,
476 U.S. 683 (1986)

passim

Davis v. Ayala,
576 U.S. 257 (2015)

22

English v. Berghuis,
900 F.3d 804 (6th Cir. 2018)

27

Frantz v. Hazey,
533 F.3d 724 (9th Cir. 2008) (en banc)

21, 37

Green v. Georgia,
442 U.S. 95 (1979)

10, 32

Harris v. Thompson,
698 F.3d 609 (7th Cir. 2012)

27

Holmes v. South Carolina,
547 U.S. 319 (2006)

24

v

TABLE OF AUTHORITIES

PAGE(S)
Jackson v. Denno,
378 U.S. 368 (1964)

27

Johnson v. Williams,
568 U.S. 289 (2013)

21, 25

Lunbery v. Hornbeak,
605 F.3d 754 (9th Cir. 2010)

32, 36

Maxwell v. Roe,
628 F.3d 486 (9th Cir. 2010)

22

Mays v. Clark,
807 F.3d 968 (9th Cir. 2015)

22

Moses v. Payne,
555 F.3d 742 (9th Cir. 2009)

24

Panetti v. Quarterman,
551 U.S. 930 (2007)

22

Pennsylvania v. Ritchie,
480 U.S. 39 (1987)....

23

Rock v. Arkansas,
483 U.S. 44 (1987)

24

Taylor v. Illinois,
484 U.S. 400 (1988)

23

Taylor v. Maddox,
366 F.3d 992 (9th Cir. 2004)

35

United States v. Scheffer,
523 U.S. 303 (1998)....

24, 27

Washington v. Texas,
388 U.S. 14 (1967)

passim

vi

TABLE OF AUTHORITIES

PAGE(S)
Wilson v. Sellers,
138 S. Ct. 1188 (2018)

21

Woodford v. Garceau,
538 U.S. 202 (2003)

21

State Cases
People v. Cudjo,
6 Cal. 4th 585 (1993)

28

People v. Duarte,
24 Cal. 4th 603 (2000)

26

People v. Grimes,
1 Cal. 5th 698 (2016)

30, 31

People v. Hamilton,
45 Cal. 4th 863 (2009)

29

People v. Lucas,
12 Cal. 4th 415 (1995)

26

People v. Miracle,
6 Cal. 5th 318 (2018)

29

Federal Constitution and Statutes
28 U.S.C. § 1254(1)

2

28 U.S.C. § 1291

2

28 U.S.C. § 2241

2
2, 26

28 U.S.C. § 2253(c)(2)
28 U.S.C. § 2254(a)

2, 3, 21

28 U.S.C. § 2254(d)

passim

U.S. Const, amend. V

passim

vii

TABLE OF AUTHORITIES

PAGE(S)
U.S. Const, amend. VI

passim

U.S. Const, amend. XIV

passim

State Statutes

Cal. Penal Code § 187(a)

5

Cal. Penal Code § 190.3

29

Cal. Evid. Code § 352

18, 28

Cal. Evid. Code § 402

7

passim

Cal. Evid. Code § 1230

viii

PETITION FOR A WRIT OF CERTIORARI

TO THE UNITED STATES COURT OF APPEALS

FOR THE NINTH CIRCUIT

Robert Ibarra petitions for a writ of certiorari to review the judgment of

the Ninth Circuit Court of Appeals affirming the judgment against him in his
habeas corpus action.
OPINIONS BELOW

The Ninth Circuit’s memorandum affirming the district court’s final
judgment is unreported. Pet. App. 39-45. The district court’s final judgment
and its order accepting the magistrate judge’s report and recommendation
and dismissing the habeas action against Ibarra with prejudice is unreported.

Pet. App. 48-52.

The order by the California Supreme Court denying Ibarra’s petition
for review is unreported. Pet. App. 85. The opinion by the California Court

of Appeal affirming Ibarra’s judgment on direct appeal is unreported. Pet.

App. 86-95.
JURISDICTION

The Ninth Circuit’s judgment affirming the judgment against Ibarra

was filed and entered on November 23, 2020. Pet. App. 39; Ninth Circuit
1

docket 57. The district court had jurisdiction under 28 U.S.C. §§ 2241 and
2254. The Ninth Circuit had jurisdiction pursuant to 28 U.S.C. §§ 1291 and
2253. This Court has jurisdiction under 28 U.S.C. § 1254(1). This petition is
timely under Supreme Court Rule 13.1 and the Court’s order of March 19,

2020 extending the filing deadline for certiorari petitions by another 60 days

(here, to April 22, 2021) because of COVID-19.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Fifth Amendment to the U.S. Constitution
“No person shall be . . . deprived of life, liberty, or property, without due

process of law . . . .”

Sixth Amendment to the U.S. Constitution

“In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury of the state and district wherein

the crime shall have been committed, which district shall have been
previously ascertained by law, and to be informed of the nature and cause of

the accusation; to be confronted with the witnesses against him; to have
compulsory process for obtaining witnesses in his favor, and to have the

assistance of counsel for his defense.”
Section 1 of the Fourteenth Amendment to the U.S. Constitution

“ . . . nor shall any state deprive any person of life, liberty, or property,
without due process of law . . . .”
2

28 U.S.C. § 2254(a)

“The Supreme Court, a Justice thereof, a circuit judge, or a district

court shall entertain an application for a writ of habeas corpus in behalf of a

person in custody pursuant to the judgment of a State court only on the
ground that he is in custody in violation of the Constitution or laws or
treaties of the United States.”

28 U.S.C. § 2254(d)
“An application for a writ of habeas corpus on behalf of a person in
custody pursuant to the judgment of a State court shall not be granted with

respect to any claim that was adjudicated on the merits in State court

proceedings unless the adjudication of the claim

(1) resulted in a decision that was contrary to, or involved an
unreasonable application of clearly established Federal law, as determined by

the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the State court

proceeding.”
28 U.S.C, § 2254(e)

“(1 ) In a proceeding instituted by an application for a writ of habeas
corpus by a person in custody pursuant to the judgment of a State court, a
determination of a factual issue made by a State court shall be presumed to
3

be correct. The applicant shall have the burden of rebutting the presumption
of correctness by clear and convincing evidence.

(4) If the applicant has failed to develop the factual basis of a claim in
State court proceedings, the court shall not hold an evidentiary hearing on

the claim unless the applicant shows that-(A) the claim relies on--

(i) a new rule of constitutional law, made retroactive to
cases on collateral review by the Supreme Court, that was
previously unavailable; or

(ii) a factual predicate that could not have been previously

discovered through the exercise of due diligence; and
(B) the facts underlying the claim would be sufficient to establish

by clear and convincing evidence that but for constitutional error, no
reasonable factfinder would have found the applicant guilty of the
underlying offense.”

STATEMENT OF THE CASE
I.

Pre-Trial and Trial
Elias Silva was stabbed to death in Goleta, California on October 3,

2004. Pet. App. 39, 87. Ibarra, Joshua Miracle and Robert Galindo were the

only people present when Silva was attacked. Pet. App. 87. Ibarra and

Miracle were arrested the next day in San Diego; Ibarra was bleeding from a
4

stab wound in his leg. Id. Ultimately, Galindo became a government witness
and Miracle and Ibarra were tried separately. Miracle was tried first; the

State sought the death penalty against him but not against Ibarra. Pet. App.
86-87.

On March 7, 2005, an indictment was filed charging Miracle and Ibarra
with murdering Silva in violation of California Penal Code § 187(a) and with
the special circumstance of lying in wait. 1 CT 1-2.1 The indictment included
special allegations of personal use of a knife and committing the offense for

the benefit of a criminal street gang. 1 CT 2. Galindo was originally charged
but made a deal before the grand jury proceedings, where he testified against
Miracle and Ibarra. 2 RT 371-73, 6642; district court docket 17, lodgment 3 at
4. On March 10, 2005, Galindo pleaded guilty to voluntary manslaughter

and agreed to testify for the prosecution at trial in exchange for a maximum

sentence of 11 years. Pet. App. 87; 2 RT 371-73.

In 2005, Miracle pleaded guilty to first degree murder and admitted to
lying in wait, personally using a knife, and committing the crime for the
benefit of a street gang. Pet. App. 87.

1 “CT” refers to the clerk’s transcript of trial lodged in district court.
See district court docket 17, lodgment 1.
2 “RT” refers to the reporter’s transcript of trial lodged in district court.
See district court docket 17, lodgment 2.

5

On October 25, 2005, before his penalty-phase trial began, the then-pro

se Miracle made a statement in court before the Honorable Brian E. Hill, the
same judge who would later preside over Ibarra’s trial. Miracle said he
wanted to explain on the record why he pleaded guilty unconditionally to a
capital homicide and admitted a special circumstance. Pet. App. 88; 4 CT

993. He explained that “the reasoning is pretty simple, I’m guilty of the

murder and Ibarra is not.” 4 CT 994 (emphasis added); see also Pet. App. 88.
Miracle said that he would not “go into details or elaborate right now,

I’ll wait until we get to Ibarra’s trial for that. But, basically, Ibarra’s just
another one of my victims and doesn’t deserve to be in jail facing capital
charges for a murder he wasn’t involved in committing.” 4 CT 994 (emphasis

added).
Miracle continued: “[T]he only reason that compelled me in pleading
guilty was because I felt the only honorable thing to do under the

circumstances was to take responsibility in terms of Ibarra’s case and then
make myself available to offer exonerating testimony on his behalf at his
trial. That’s the only reason I pled guilty to the murder . . . .” Id. He added:
“I didn’t plead guilty for the purpose of them benefitting from that by

introducing that as mitigating evidence at the penalty phase.” Id.

Judge Hill asked: “Did you plead guilty because you are guilty?”
Miracle responded, “Yes.” Id.

6

Judge Hill asked: “Did you admit the special circumstances because
you committed those special circumstances?” Miracle replied, “Yes. And

because I’m the only person responsible for the murder of Eli Silva.” Id.

(emphasis added). Miracle added that he did not want the “prosecution at
Ibarra’s trial” to “insinuate to the jury that the only reason [he] plead guilty

to the murder was to save [his] own neck.” 4 CT 995; see also Pet. App. 56,
88.

In 2006, after a penalty trial, a Santa Barbara County jury imposed the

death penalty against Miracle. Pet. App. 56, 86.
On June 12, 2006, the prosecutor in Ibarra’s case filed a motion in

limine requesting a hearing outside the presence of the jury under Evidence
Code section 402 “for the purpose of evaluating the legal posture of Mr.

Miracle’s anticipated testimony in the jury trial of’ Ibarra. 1 CT 57. The
motion stated that Miracle “attested to a document” reflecting his answers to
a series of 20 questions posed by Ibarra’s attorney. The document was

attached to the motion. 1 CT 59, 65, 67-68.3 The California Court of Appeal

noted that the responses were made in January 2006, after Miracle had been

3 Ibarra’s attorney later stated that the statements were made to
Miracle’s investigator and his advisory counsel — Miracle was pro se at the
time — and those statements were provided to Ibarra’s counsel and then
“discovered to the district attorney’s office.” 3 CT 667; see also Pet. App. 88,
122-123.
7

sentenced to death. Pet. App. 88. Miracle’s responses include the statements

that:
• “Ibarra had no knowledge that I intended to kill Silva.”
• “Ibarra did not participate in the planning of Silva’s killing.”

• “Ibarra did not pull Silva into the apartment” where Silva was
stabbed.

• “Ibarra was attempting to mediate between Galindo and I.”
• “Ibarra had no tool or weapon in his possession the entire time that I
was in contact with Ibarra.”

• “Ibarra attempted to help Galindo when he saw Galindo, Silva and I
struggling on the floor together. Ibarra ended up colliding with Silva in
his attempts to assist Galindo.”

• “I stabbed Ibarra intentionally when I thought that Ibarra was trying
to interfere and help Silva.”

• “Ibarra did not know I was going to rob Silva. I did not discuss my
plans to rob Silva with Ibarra.”

• “Ibarra did not ever have either knife.”
• “Ibarra tried to prevent me from attacking Galindo when he walked
towards the direction of the struggle.”

1 CT 67-68; see also Pet. App. 88 (California Court of Appeal states that

“[a]ccording to Miracle, Ibarra was wholly innocent.”).

8

The motion stated that “the People have an ethical duty to find, bring
forward and examine all evidence in this case regardless of what side it
appears to ‘favor.’” 1 CT 60. The motion added that a “search for the truth
necessarily includes the words of the co-defendant in the crimes for which

Mr. Ibarra faces the ultimate punishment.” Id.4 Accordingly, the “People

intend to subpoena Mr. Miracle ... so that he may take the stand and allow

the court and counsel to understand what, if any evidence he intends to share
with the jury.” 1 CT 60 (footnote omitted).

In a trial brief filed on October 28, 2008, the prosecution reiterated its
request for a 402 hearing to question Miracle outside the presence of the jury.
On May 23, 2011, the prosecution filed a supplemental trial brief

arguing that if Miracle refused to answer questions on cross-examination, his
testimony should be stricken.

The 402 hearing was held on May 25, 2011 before Judge Hill. 3 CT

624. Before the hearing, Ibarra filed an “Application to Present a Complete
Defense.” 3 CT 602. The application argued that Ibarra had a federal and

state constitutional right to present a complete defense and cited Chambers

v. Mississippi, 410 U.S. 284 (1973), Crane v. Kentucky, 476 U.S. 683 (1986),

4 Although the prosecution initially sought the death penalty against
Ibarra, ultimately it decided to seek life without parole as the maximum
penalty. 1 RT 2, 116.

9

Washington v. Texas, 388 U.S. 14 (1967), and Green v. Georgia, 442 U.S. 95

(1979), in support. 3 CT 604.5 The application attached Miracle’s answers to

defense counsel’s questions that the prosecution had filed with its 402 motion

in 2006. 3 CT 619-620. The application included the questions that Miracle
was responding to, and reports of two interviews of Miracle by defense
investigator Robert Strong, a former police officer. 3 CT 609-622. One report

stated that in a July 10, 2006 interview, Miracle told Strong that he would
agree to testify and be cross-examined by the district attorney regarding his

role and the roles of Ibarra and Galindo in the stabbing as long as they didn’t

ask him any questions about politics. Miracle said that he was on a
“mission,” but Ibarra had nothing to do with his mission. Miracle said that

he yelled at Ibarra not to move as he (Miracle) stabbed Silva in the chest.

Miracle said that he had a moral responsibility to help Ibarra out of the
predicament he got him into. 3 CT 609-614.

Strong reported that his second interview of Miracle on March 5, 2007

was consistent with the first. 3 CT 616.
In his application, Ibarra argued that Miracle’s statements were

critical to his defense and that if the court concluded that Miracle was

5 The court granted a defense motion to acknowledge that all oral
motions or objections made are based on applicable state and federal law.
10

unavailable to testify because he invoked his Fifth Amendment privilege

against self-incrimination, the court should admit the statements as

declarations against penal interest under Evidence Code § 1230. 3 CT 604-

606.
On May 25, 2011, Ibarra also filed a document titled “Proffered
Testimony of Joshua Miracle” that included the responses to questions

submitted with the Application. 2 CT 588-600.
Miracle invoked his Fifth Amendment privilege and refused to testify

at the 402 hearing. Pet. App. 88. Miracle was represented by appellate

counsel at the hearing; as noted above, Miracle had been pro se at the time of
his in-court statement before his penalty trial. The court concluded that it

“seems pretty clear based on the advice of counsel and based on his own

independent understanding of his Fifth Amendment privilege that he intends

to invoke that privilege and not answer any questions.” 1 RT 165-166. The
court did not rule on the admissibility of Miracle’s statements as a
declaration against interest. Defense counsel emphasized that the defense

would seek to admit Miracle’s in-court admissions from his trial, summarized
above, not just the out-of-court responses to defense questions and in

interviews with a defense investigator. 1 RT 169-171.

11

Opening statements were made on June 6, 2011. 1 RT 185, 199. The
prosecution’s key witness, Robert Galindo, began his testimony two days

later. 2 RT 342, 366. His testimony is described below.

On June 20, 2011, Ibarra filed a “Motion to Admit Evidence as
Declarations Against Interest” seeking the admission of Miracle’s statements
exculpating Ibarra. 3 CT 666. The motion argued that “[tjhere is nothing in

the proffered evidence which would make the statements unreliable. Mr.
Miracle understood, when these statements were made, that they were
contrary to his penal interests. His knowledge of this fact is bolstered by the

Court’s allowing him to proceed in pro per in a case of this magnitude.” 3 CT

670.
On June 22, 2011, Judge Hill ruled that Miracle was unavailable as a
witness and the question whether to admit his statements was “all about

trustworthiness.” 5 RT 1366.

The next day, June 23, Judge Hill ruled that Miracle’s statements were

inadmissible as “declarations against penal interest” because “they lack the
required findings that has to be made by a court that they’re trustworthy.”
Pet. App. 114-115; see also Pet. App. 118, 121, 123. The court explained that

“while Miracle in certain statements indicates that he did the stabbings, he
then goes on and offers separate statements as to Mr. Ibarra’s involvement in

the case and so the two are not necessarily connected.” Pet. App. 115.
12

The court said that “the evidence in the case does indicate that though

the statements made by Mr. Miracle are incriminating against his penal
interest, they’re not significantly against his penal interest, which goes to the

question of whether they should be considered trustworthy because they’re

made several years after he entered a plea of guilty or no contest to the crime

of murder in the first degree and admitted the special circumstance.” Pet.
App. 116. The court explained that the statements are “incriminating in the

sense that they could be used in the future if for some reason Mr. Miracle’s

conviction is reversed, which is always a possibility.” Id. “But they’re not the
kind of incriminating statements that are made under circumstances that
really expose him to criminal liability having been made two years later to an
investigator for a co-participant or co-defendant [which] seems to suggest

that his motivation may have been to protect the co-participants or the co­
defendant as opposed to making the statements under circumstances where

he was truly exposing himself to criminal liability by making the statements
. . . . [Tjhey’re made at a time when he’s already been convicted.” Pet. App.

116-117; see also Pet. App. 120 (“it’s ostensibly against his penal interest, but
the reality is this is somebody who has already plead [sic] guilty”).
The court added that “[t]hese were not declarations that were made to
somebody who didn’t have partisan interest in the case, these were made to

the investigator for a co-defendant with whom Mr. Miracle has a relationship,
13

or at least had a relationship.” Pet. App. 120. Defense counsel clarified that
Miracle’s answers to the series of questions were “made to an investigator

representing Mr. Miracle and to Mr. Miracle’s then advisory counsel Joseph

Allen,” not to Ibarra’s counsel or investigator. Pet. App. 122-123; see also 6
RT 1618, 1621, 1627-1629, 1745.
The judge said that “the one statement that appears to be made under

circumstances which would suggest that they’re trustworthy is the statement

that is made by Miracle to his stepmother, which is, the way I see it if I’m

willing to kill, I should be willing to die, too, so that’s made under
circumstances that I would think that that statement is trustworthy.” Pet.
App. 117. But the court said there were “prejudicial aspects to that

statement that would indicate . . . that probably under [Evidence Code §] 352

the statement ought to be excluded because there’s a reference to actually
being willing to die too,” indicating he received the death penalty. Id. The
court excluded all the statements. Pet. App. 118.
The court reaffirmed its decision on June 27, 2011 after receiving

testimony from investigator Lynn McLaren regarding the process by which

Miracle answered the questions submitted to her by Ibarra’s counsel. Pet.
App. 109-111; 6 RT 1620-1639; 7 RT 1737-1747. The court reiterated that the

“the totality of the circumstances suggests that the statements are
untrustworthy.” Pet. App. 110. The court explained that “the statements
14

made by Mr. Miracle a year or sometimes even two years after the event in

question were made with an intent to enhance his reputation, avoid
cooperation with law enforcement in any way, [and] assist Mr. Ibarra with
whom he had some sort of relationship.” Id.
Robert Galindo was the prosecution’s key witness at trial. As described

by the California Court of Appeal in its opinion affirming the judgment,
Galindo testified that “Silva was a methamphetamine dealer.” Pet. App. 90.
“Miracle asked Galindo to call Silva and tell him to come to the apartment”

where Galindo lived. Id.; see also 2 RT 367-368. “When Galindo protested,

Miracle held a knife to Galindo’s throat. Galindo used Ibarra’s cell phone to
call Silva many times before he persuaded Silva to come” over to sell drugs.
Pet. App. 90; 2 RT 462-463. According to Galindo, “[w]hen Silva opened the

door, Ibarra pulled Silva into the apartment and Miracle attacked Silva.
Galindo testified that he ran from the apartment and did not see Silva get
stabbed.” Pet. App. 90. “Galindo had Ibarra’s cell phone, but he did not call

911.” Id.
As the California Court of Appeal noted, Galindo’s “testimony was

inconsistent with his initial statements to police. In a note, a juror asked,

‘What do/can we do when there are inconsistencies in testimony that the
attorneys don’t address?”’ Id. “The juror pointed out that phone records
contradicted Galindo’s testimony.” Id. “Another juror asked if Galindo had

15

been gainfully employed, pointed out conflicts in his testimony, and wrote,

‘R.G. has stated this both ways. Which was it?” Id. On July 1, 2011, just
before the jury reached its verdicts, the jury also asked: “If we cannot come
to a unanimous decision on one of the special circumstances, but are
unanimous on the remainder of the case, will this result in a mistrial?” The
jury reached a verdict before the court responded. 7 RT 1929-1232.

On July 1, 2011, the jury convicted Ibarra of first degree murder with

the special circumstance of lying in wait. Pet. App. 86; 3 CT 822-823. The
jury found true the allegations that Ibarra personally used a knife and

committed the crime for the benefit of a street gang. Id.
Ibarra filed a motion for a new trial based on the exclusion of Miracle’s
statements against penal interest. 4 CT 960-1058. The motion was based on

Miracle’s in-court admissions made before his penalty trial and his later
responses to defense questions and in interviews with defense investigator

Strong. The motion argued that the failure to admit the statements as a
declaration against interest violated Ibarra’s federal constitutional rights to

present a complete defense, a fair trial, compulsory process, and due process,
and cited Chambers, Crane, Washington v. Texas and other United States

Supreme Court opinions in support. The motion also argued that a new trial

was required based on the prosecution’s failure to produce exculpatory
evidence and on other misconduct.

16

On July 23, 2012, Judge Hill denied the motion and sentenced Ibarra to
life without parole. Pet. App. 97-106; 4 CT 1093-1095. In denying the
motion, the judge said that he had “heard it before” but still concluded that

the “statements were not made in a context or in circumstances that
suggested that they were trustworthy.” Pet. App. 106. The court stated that
Miracle “certainly was, very much a part of the gang culture,” “so when Mr.
Miracle makes these statements exonerating, attempting to exonerate Mr.
Ibarra it’s in the context of someone who is hypersensitive to the possibility

that a charge could be leveled at him that he is somehow cooperating with

law enforcement or being a rat.” Pet. App. 99. He added that “[e]ven before
he received the death penalty he knew he was going to be spending the rest of
his life, in all likelihood, in prison. So it would be extremely dangerous for

him under those circumstances to come forward and cooperate in any way
with law enforcement or to testify against someone else who appeared to be

involved in this crime.” Id. The fact that Ibarra “was apparently stabbed”
was “not inconsistent” with Miracle’s statements but that “everything else

would seem to point to Mr. Ibarra and Mr. Miracle acting in concert in the

commission of this offense, not that Mr. Miracle was in some way

orchestrating this by himself.” Pet. App. 105. The court sentenced Ibarra to
life in prison without the possibility of parole. Pet. App. 86.

17

II.

State Appeal

On direct appeal, Ibarra argued that he was deprived of his federal
constitutional rights to present a complete defense, confront witnesses, a fair

trial, due process, and compulsory process under the Fifth, Sixth and

Fourteenth Amendments when the trial court improperly excluded Miracle’s

statements against penal interest that exculpated Ibarra. District court
docket 17, lodgment 3 at 16-26. Ibarra cited Chambers, Crane, Washington,

and three other United States Supreme Court opinions in support of his
argument. Id. at 25-26.

Respondent argued that the trial court properly excluded Miracle’s

statements because they were untrustworthy and therefore did not qualify
for the hearsay exception for declarations against penal interest. District
court docket 17, lodgment 4 at 22. Respondent further argued that “the trial

court would have also been within its discretion in excluding evidence of the
in-court statement pursuant to Evidence Code section 352.” Id. at 24.

Respondent acknowledged Ibarra’s federal constitutional claim but argued
that “the defendant’s right to present a defense is not violated where the trial
court excludes hearsay evidence because the defendant has failed to meet the

foundational requirements for introducing it under a recognized exception to
the hearsay rule,” i.e., that the statements were sufficiently reliable to
constitute a declaration against interest. Id. at 27-28.

18

The California Court of Appeal denied Ibarra’s claim in the part of its
opinion titled “Statements Against Penal Interest.” Pet. App. 91 (original
emphasis). The court characterized Ibarra’s claim as “contend[ing] that the

trial court should have admitted Miracle’s statements because they were
against his penal interest. (Evid. Code, § 1230.)” Pet. App. 86. The court

began its analysis by explaining that “[tjhe hearsay statement of an
unavailable witness may be admitted if, when made, it ‘subjected him to the

risk of criminal liability’ such ‘that a reasonable man in his position would
not have made the statement unless he believed it to be true.’ (Evid. Code, §

1230).” Pet. App. 91. “The proponent of a statement against penal interest
must show that (1) the declarant is unavailable, (2) the declaration was

against the declarant’s penal interest, and (3) the declaration was sufficiently

reliable to warrant admission despite its hearsay character.” Id. The court
said that the hearsay exception “does not apply to collateral assertions within
declarations against penal interest” and that “[o]nly those portions of a
statement that are ‘specifically disserving’ to the speaker’s penal interest are

admissible under Evidence Code section 1230.” Id.

The court ruled that “Miracle became unavailable when he invoked

the Fifth Amendment” but that the trial court did not abuse its discretion in
concluding that his statements were not sufficiently reliable to warrant
admission. Id. The court stated that “Miracle’s pre-penalty statement was a

19

I

contrived effort to exonerate Ibarra at little risk to his own criminal liability.

Miracle described it as a ‘prepared’ statement and asked the court for an

opportunity to put it ‘on the record.’” Pet. App. 92. “He acknowledged that
he was motivated to exonerate Ibarra and that his claim of sole responsibility

could inspire leniency in the penalty phase of his own trial.” Id. The court

said that “Miracle’s statements to defense investigators are even less
trustworthy because of the time he had to reflect and construct them and
because he had so little to lose after he was sentenced to death.” Id. “That

Miracle’s written answers to [defense counsel’s] questions were corroborated
by physical evidence does not render them trustworthy.” Id. The court

concluded by stating that “[t]he trial court did not abuse its discretion when
it excluded Miracle’s statements.” Id. The opinion does not mention Ibarra’s
federal constitutional claims or any federal cases.

Ibarra reasserted his claim in a petition for review and a petition for a
writ of certiorari to this Court, which were denied.

III.

Federal Habeas Action

The magistrate judge recommended that the district court deny relief.
The district court accepted the report, entered judgment against the pro se
Ibarra, and denied a COA. Pet. App. 48-84. The Ninth Circuit granted a

COA on Ibarra’s third-party culpability claim but affirmed the judgment in
an unpublished memorandum filed on November 23, 2020. Pet. App. 39-47.

20

REASONS FOR GRANTING THE WRIT
1.

AEDPA Standards
Ibarra filed his federal habeas petition after AEDPA’s effective date;

therefore, his petition is governed by AEDPA. Woodford v. Garceau, 538 U.S.

202, 205, 210 (2003). To obtain relief under AEDPA, a petitioner must show
that his constitutional rights were violated under 28 U.S.C. § 2254(a) and

that § 2254(d) does not bar relief on any claim adjudicated on the merits in
state court. Frantz v. Hazey, 533 F.3d 724, 735-737 (9th Cir. 2008) (en banc).

Under § 2254(d), a habeas petition challenging a state court judgment:

shall not be granted with respect to any claim that
was adjudicated on the merits in State court
proceedings unless the adjudication of the claim-(l)
resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the
Supreme Court of the United States; or (2) resulted
in a decision that was based on an unreasonable
determination of the facts in light of the evidence
presented in the State court proceeding.
The relevant state court decision for purposes of federal review is the

last reasoned decision that resolves the claim at issue. Wilson v. Sellers, 138

S. Ct. 1188, 1192 (2018). Where, as here, the California Supreme Court
summarily denies a petition for review on direct appeal, the federal court
“‘lookfs] through’ th[at] unexplained decision to the last reasoned state-court

decision that does provide a relevant rationale,” id. at 1192, i.e., the Court of
Appeal opinion. Johnson v. Williams, 568 U.S. 289, 297 n.l (2013).

21

When a federal court concludes that the state court decision is contrary
to or an unreasonable application of federal law, or is based on an

unreasonable factual determination, it reviews the claim de novo in assessing

whether the petitioner’s constitutional rights were violated. Panetti v.

Quarterman, 551 U.S. 930, 953-954 (2007); Maxwell v. Roe, 628 F.3d 486, 506
(9th Cir. 2010).
“On collateral review” of nonstructural constitutional errors, “relief is

appropriate ‘if the prosecution cannot demonstrate harmlessness.’” Mays v.
Clark, 807 F.3d 968, 980 (9th Cir. 2015) (quoting Davis v. Ayala, 576 U.S.

257, 135 S. Ct. 2187, 2197 (2015)). When a petitioner has shown a
constitutional violation and the state court did not adjudicate the federal
claim or assess prejudice, the only question is whether the harmless error

test of Brecht v. Abrahamson, 507 U.S. 619 (1993), is satisfied. Under this
test, relief is proper when “the federal court has ‘grave doubt about whether a
trial error of federal law had substantial and injurious effect or influence in

determining the jury’s verdict.’” Ayala, 576 U.S. at 267-268 (quotation marks
omitted).

11.

Legal Principles Governing Ibarra’s Claim

Ibarra’s claim is based on the Sixth Amendment rights to trial by jury
and to compulsory process to compel the testimony of witnesses in the

defendant’s favor, and on the Fifth and Fourteenth Amendment due process

22

rights to a fair trial and to a meaningful opportunity to present a complete
defense.
The United States Constitution guarantees every criminal defendant

the fundamental right to “a meaningful opportunity to present a complete
defense.” California v. Trombetta, 467 U.S. 479, 485 (1984); Crane, 476 U.S.

at 687; Clark v. Brown, 450 F.3d 898, 904 (9th Cir. 2006). The right to
present a defense is a “fundamental element of due process” guaranteed by

the Fourteenth Amendment. Washington, 388 U.S. at 19.
The right of the accused to present witness testimony in support of his
defense is also guaranteed by the Sixth Amendment’s Compulsory Process
Clause. Taylor v. Illinois, 484 U.S. 400, 409 (1988) (noting that the Sixth

Amendment guarantees the “right to have the witness’ testimony heard by

the trier of fact.”); Pennsylvania v. Ritchie, 480 U.S. 39, 56 (1987) (“Our cases

establish, at a minimum, that criminal defendants have the right to the
government’s assistance in compelling the attendance of favorable witnesses

at trial and the right to put before a jury evidence that might influence the
determination of guilt.”) (Footnote omitted.)
“Few rights are more fundamental than that of an accused to present

witnesses in his own defense.” Chambers, 410 U.S. at 302. Although states
may promulgate evidentiary rules that ensure the efficient presentation of
evidence and exclude evidence that is misleading, irrelevant, cumulative, or

23

unduly prejudicial, see Moses v. Payne, 555 F.3d 742, 757 (9th Cir. 2009), see

also United States v. Scheffer, 523 U.S. 303, 308 (1998), this Court has held
that the application of state evidentiary or procedural rules that preclude the

presentation of evidence of third-party guilt without a rational justification is
unconstitutional. Holmes v. South Carolina, 547 U.S. 319, 326 (2006). The
Court has consistently rejected state evidentiary rules that exclude a defense

witness’ testimony on the ground that a particular class of witness or type of
witness testimony is not believed to be credible. See, e.g., Rock v. Arkansas,

483 U.S. 44, 56 (1987) (exclusion of all hypnotically-refreshed testimony

violated defendant’s Due Process and Sixth Amendment rights to testify on
his own behalf); Washington, 388 U.S. at 22 (ban against testimony of a

witness who stands accused of the same crime charged against the defendant

violated defendant’s Sixth Amendment right to call witnesses in his favor);

Crane, 476 U.S. at 690-691 (holding that misapplication of state procedural
rule resulting in exclusion of critical defense evidence necessary to explain

defendant’s false confession lacked rational justification, and therefore
violated defendant’s right to a “meaningful opportunity to present a complete

defense”) (citation omitted); Cudjo, 698 F.3d at 763 (“Supreme Court
precedent makes clear that questions of credibility are for the jury to decide”;

granting habeas relief in AEDPA case because California trial court’s

24

exclusion of third-party culpability evidence as unreliable violated
petitioner’s constitutional right to present a defense).

111.

The State Court Did Not Adjudicate the Merits of Ibarra’s
Claim and Therefore This Court Reviews the Claim De Novo

In district court, Respondent acknowledged that the California Court of
Appeal “cited California cases when it rejected current Ground One [the
claim raised here], without expressly citing federal cases or the United States
Constitution.” District court docket 16 at ECF page 16. But Respondent

argued that “the appellate court implicitly denied the federal constitutional

claim asserted with respect to the trial court’s exclusion of this proffered
evidence, apparently finding it ‘too insubstantial to merit discussion.’ See

Johnson v. Williams, 133 S. Ct. at 1095-96.” Id. (footnote omitted). The
Ninth Circuit sided with Respondent, ruling that the state court adjudicated

the merits of Ibarra’s federal claim. Pet. App. 42. The Ninth Circuit is

wrong. This is not a case (1) “in which a line of state precedent is viewed as
fully incorporating a related federal constitutional right”; (2) the defendant’s
briefs made “a fleeting reference to a provision of the Federal Constitution or
federal precedent”; or (3) the “state court may simply disregard a claim as too

insubstantial to warrant discussion.” Williams, 568 U.S. at 298-299.
First, the California Supreme Court has explained that “[t]he claim

that the evidence must be admitted as a matter of due process is distinct, and

25

[does] not serve to preserve the” argument that evidence should have been
admitted under California Penal Code § 1230 as a declaration against

interest. People v, Lucas, 12 Cal. 4th 415, 462 (1995). The court has also

explained that it has a well-established rule of “‘not reaching constitutional
questions unless absolutely required to do so to dispose of the matter before’”

it. People v. Duarte, 24 Cal. 4th 603, 611 (2000); id. (“before addressing

defendant’s confrontation clause claim, we examine his claim of error
respecting the trial court’s evidentiary ruling” under Evidence Code section
1230) (cited in Court of Appeal opinion, Pet. App. 91-92).

Second, Ibarra’s appellant’s opening brief made extensive references to
his federal constitutional claim and cited numerous federal cases in support

of it. The State responded to the federal claim in its brief. Supra at 18.
Third, Ibarra’s claim could not be simply disregarded as “too

insubstantial to warrant discussion.” It was the main claim in his appellate

briefs and the Ninth Circuit granted him a COA on the claim because he
“made a substantial showing of the denial of a constitutional right.” 28

U.S.C. § 2253(c)(2); Pet. App. 46.

Although the Court of Appeal explicitly rejected Ibarra’s state-law
claim “that the trial court should have admitted Miracle’s statements because

they were against his penal interest,” it did not adjudicate, or even mention,
his distinct claim that the failure to admit the statements as a declaration

26

against interest violated his federal constitutional rights. Pet. App. 86, 9192. The Johnson v. Williams presumption has been rebutted and the Court

reviews Ibarra’s claim de novo. English v. Berghuis, 900 F.3d 804, 811-13
(6th Cir. 2018); Harris v. Thompson, 698 F.3d 609, 623-24 (7th Cir. 2012).

IV.

The Court Should Grant Relief on De Novo Review

The Court should grant relief on de novo review because Miracle’s
statements were sufficiently reliable to require their admission under the
federal Constitution and California’s hearsay exception for declarations

against interest.
Chambers “clearly established that the exclusion of trustworthy and

necessary exculpatory testimony at trial violates a defendant’s due process
right to present a defense.” Cudjo, 698 F.3d at 754. “Supreme Court

precedent [also] makes clear that questions of credibility are for the jury to
decide.” Id. at 763; Jackson v. Denno, 378 U.S. 368, 386 n.13 (1964) (“Just as
questions of admissibility of evidence are traditionally for the court,
questions of credibility, whether of a witness or a confession, are for the jury.

This is so because trial courts do not direct a verdict against the defendant on
issues involving credibility.”); Scheffer, 523 U.S. at 313 (“A fundamental

premise of our criminal trial system is that ‘the jury is the lie detector. . . .
Determining the weight and credibility of witness testimony, therefore, has

long been held to be the ‘part of every case [that] belongs to the jury . . . .”).

27

Similarly, the California Supreme Court has “warned trial courts to
avoid hasty conclusions that third-party culpability evidence is ‘incredible’;
this determination, [the Court] has affirmed, ‘is properly the province of the

jury.’” People v. Cudjo, 6 Cal. 4th 585, 610 (1993) (cited by California Court

of Appeal, Pet. App. 91). The court has also explained that “[t]o withstand a
challenge under Evidence Code section 352, evidence of a third party’s
culpability ‘need only be capable of raising a reasonable doubt of the
defendant’s guilt.’” Id. at 609.

Ibarra met all the state law prerequisites under Evidence Code sections

352 and 1230 to admit Miracle’s statements: Miracle was unavailable
because he invoked his Fifth Amendment privilege; his statements were

against his penal interest; his statements were sufficiently reliable; and the
probative value of his statements was not substantially outweighed by other

factors. The California Court of Appeal nevertheless ruled that “Miracle’s

pre-penalty statement was a contrived effort to exonerate Ibarra at little risk
to his own criminal liability.” Pet. App. 92. Similarly, the trial judge

emphasized that Miracle’s statements came after he had already pleaded
guilty and admitted the special circumstances. Pet. App. 116-117, 120.

The state court had it backwards. When Miracle made his in-court
statement taking full responsibility for killing Silva and exonerating Ibarra,
he was awaiting his penalty trial, where a jury would decide if he would live

28

or die. As the California Supreme Court explained in its opinion affirming
Miracle’s death judgment on appeal, because Miracle “pleaded guilty to the

charges and allegations, evidence related to the crimes was submitted at the

penalty phase to establish the circumstances of the crimes” under California
Penal Code section 190.3(a). People v. Miracle, 6 Cal. 5th 318, 321 (2018).

The circumstances of the crime are generally viewed as aggravating whereas

evidence of a defendant’s diminished or shared role is a mitigating factor
favoring life. See, e.g., Cal. Penal Code section 190.3(f) (allowing evidence on

“[w]hether or not the offense was committed under circumstances which the
defendant reasonably believed to be a moral justification or extenuation for
his conduct.”); Cal. Penal Code section 190.3(g) (“Whether or not defendant

acted under extreme duress or under the substantial domination of another
person.”); Cal. Penal Code section 190.3(j) (“Whether or not the defendant

was an accomplice to the offense and his participation in the commission of
the offense was relatively minor.”); see also People v. Hamilton, 45 Cal. 4th
863, 912 (2009) (evidence that may create a lingering doubt of defendant’s

guilt is admissible mitigation evidence at penalty).
Miracle said in court that he sought a verdict of life without parole at
his trial, not death. While Miracle “may not have been familiar with the

intricacies of California’s death penalty law” when he admitted being solely
responsible for killing Silva, “it is reasonable to infer that he understood the

29

commonsense notion that killers who act on their own are likely to be
punished more severely than those who were encouraged or assisted by a

confederate, or who played some lesser role in the act.” People v. Grimes, 1
Cal. 5th 698, 718 (2016). Miracle’s “admission of sole responsibility for the

brutal murder of [Silva] would have qualified as an aggravating circumstance
tending to justify imposition of the death penalty.” Id. Miracle’s in-court
statement thus posed a significant risk to his criminal liability -- a possible

death sentence. He had a lot to lose when he made the statement, and “‘a

reasonable man in his position would not have made the statement unless he
believed it to be true.’” Pet. App. 91.

The California Court of Appeal ruled that “Miracle’s statements to
defense investigators are even less trustworthy because of the time he had to
reflect and construct them and because he had so little to lose after he was

sentenced to death.” Pet. App. 92. The magistrate judge also said that after

Miracle was sentenced to death, he had nothing to lose, and he had “time to
construct his answers carefully.” Pet. App. 80. But Miracle gave his

responses to the series of questions by Ibarra’s attorney to his own
investigator and advisory counsel, and the fact that he had time to reflect

does not make these statements less credible -- the theory of admissibility

was not a spontaneous statement or excited utterance. Pet. App. 118. And as
Ibarra argued at trial, a “person who is sitting on death row in San Quentin
30

who has an automatic appeal, is aware that he has an automatic appeal [and]

is certainly in these circumstances making declarations against interest.”
P et. App. 119. Miracle’s statements were against his penal interest in the
event he won relief post-conviction, something the trial judge acknowledged

was “always a possibility.” Pet. App. 116.

The reliability of Miracle’s statements is further shown by the fact that
they were corroborated by the physical evidence. Ibarra was found to have

been stabbed in the leg and the position of his fingerprint on the knife tended

to confirm that he had touched it while taking it out of his leg.

The California Court of Appeal said that the hearsay exception “does
not apply to collateral assertions within declarations against penal interest”

and that “[o]nly those portions of a statement that are ‘specifically disserving’

to the speaker’s penal interest are admissible under Evidence Code section
1230,” suggesting that Miracle’s statements attesting to Ibarra’s innocence
were somehow inadmissible. Pet. App. 91. But that is not California law.

See Grimes, 1 Cal. 5th at 703, 712 (granting penalty-phase relief because trial
court erred by excluding evidence of co-perpetrator’s statements that capital
defendant did not participate in the killing and reacted with surprise when

co-perpetrator killed victim); id. at 716 (“the nature and purpose of the
against-interest exception does not require courts to sever and excise any and

all portions of an otherwise inculpatory statement that do not ‘further
31

incriminate’ the declarant”). Nor is such a rule permissible under the federal

Constitution. Chambers, 410 U.S. at 302 (“where constitutional rights

directly affecting the ascertainment of guilt are implicated, the hearsay rule

may not be applied mechanistically to defeat the ends of justice”); Green, 442
U .S. at 97 (“[rjegardless of whether the proffered testimony comes within

Georgia’s hearsay rule, under the facts of this case its exclusion constituted a
violation of the Due Process Clause of the Fourteenth Amendment”).

It was for Ibarra’s jury, not his trial judge, to assess the credibility of

Miracle’s statements taking responsibility for Silva’s killing and exonerating
Ibarra. Supra at 23-25; Cudjo, 698 F.3d at 763; Lunbery v. Hornbeak, 605
F.3d 754, 760-63 (9th Cir. 2010).
The constitutional violation here prejudiced Ibarra. This Court has
emphasized that a defendant’s confession “is probably the most probative and
damaging evidence that can be admitted against him .... Certainly,

confessions have profound impact on the jury, so much so that we may

justifiably doubt its ability to put them out of mind even if told to do so.”
Arizona v. Fulminante, 499 U.S. 279, 296 (1991). Because of the uniquely

powerful and incriminating nature of a confession, a reviewing court must
“exercise extreme caution before determining that the admission of the

confession at trial was harmless.” Id. Although Fulminante concerned the

erroneous admission of a defendant’s confession against him, its reasoning

32

applies with equal force to the exclusion of a co-perpetrator’s confession. Just
as a defendant’s “own confession is probably the most probative and damning

evidence against him,” the confession of a co-perpetrator that he, and not the
defendant, was responsible for the crime, may be the most probative and

exonerating evidence for the defendant. That is especially true where, as

here, the physical evidence corroborates the confession, i.e., shows that

Ibarra had been stabbed in the leg, a stabbing Miracle said he intentionally
inflicted because he thought Ibarra was trying to help Silva.

The exclusion of Miracle’s statements resulted in a sanitized
presentation to the jury in which the defense was deprived of the opportunity

to counter the testimony of Robert Galindo, who testified in exchange for a
deal and minimized his own involvement. Galindo’s statements were far less

objectively reliable than Miracle’s, yet the jury was allowed to hear his
testimony and reach its own conclusion. Galindo admitted that he spent
almost two hours getting his story straight with his friends before speaking

to the police. Nothing about Galindo’s self-serving statements suggest that
he is much more trustworthy than Miracle. If there is a reason to doubt
Miracle, there is much more of a reason to doubt Galindo. But the jury did

not get to decide between the two of them. The numerous jury notes pointing

out inconsistencies in Galindo’s testimony highlight the prejudice from the
one-sided presentation resulting from the exclusion of Miracle’s statements.

33

The admission of Miracle’s statements that he committed the crime

entirely on his own, and that Ibarra was just another one of his victims,
would have created a reasonable doubt of Ibarra’s guilt. At a minimum, the
Court should have grave doubt about whether the wrongful exclusion of

Miracle’s statements had substantial and injurious effect or influence in

determining the jury’s verdict, and therefore prejudice is established.
V .

Even Assuming the State Court Adjudicated the Merits of
the Claim, 28 U.S.C. § 2254(d) Does Not Bar Relief Because
the State Court Decision Is Contrary To and an
Unreasonable Application of Federal Law and Is Also Based
on an Unreasonable Determination of the Facts
If the Court concludes that the state court adjudicated the merits of

Ibarra’s federal claim, and therefore 28 U.S.C. § 2254(d) applies, relief is still

available because the state decision runs afoul of both § 2254(d)(1) and (d)(2).
First, the state court’s determination that Miracle’s statements were

insufficiently trustworthy to be admitted into evidence is based on an
unreasonable determination of the facts, as shown in the preceding section.
At the time of Miracle’s in-court statement that he alone was responsible for

killing Silva, and Ibarra was wholly innocent and another of his victims, he
was awaiting a trial to decide whether he would live or die based in no small
part on his relative culpability for Silva’s murder. He had a lot to lose when

he made the statement, and “‘a reasonable man in his position would not
have made the statement unless he believed it to be true.’” Pet. App. 91. He
34

still had a lot to lose when he made incriminating statements after he was
sentenced to death but still had an appeal, state and federal habeas actions,

and a clemency request ahead of him. His admissions where also consistent
with the physical evidence showing that Ibarra had been stabbed in the leg.

The state court’s finding that Miracle’s statements were insufficiently
trustworthy is contradicted by the record and objectively unreasonable, and

therefore relief is authorized by 28 U.S.C. § 2254(d)(2). "Brumfield v. Cain,
576 U.S. 305, 312-319 (2015); Taylor v. Maddox, 366 F.3d 992, 999-1001 (9th

Cir. 2004).
As also shown above, the state court’s decision is contrary to the clearly

established federal law of Chambers, 410 U.S. 284, and therefore relief is also

authorized by § 2254(d)(1). See Cudjo, 698 F.3d at 758, 755-766, 770
(granting relief to California capital habeas petitioner in case governed by

AEDPA; California Supreme Court’s denial of claim of wrongful exclusion of
admission of guilt by alternative suspect that, if made as claimed, was

probably true, was contrary to Chambers').

The state court decision is also contrary to Washington, 388 U.S. 14.
Washington reversed a murder conviction because the defendant was

prevented from presenting the testimony of Charles Fuller, who had been
separately convicted of the same murder, that defendant “pulled at him and

tried to persuade him to leave, and that [defendant] ran before Fuller fired

35

the fatal shot.” 388 U.S. at 16. This is similar to Miracle’s statements that
Ibarra tried to mediate the conflict, that Miracle alone was responsible for
killing Silva, and that Ibarra was innocent. In both cases, the excluded

testimony was “relevant and material” and “vital to the defense.” Id. The

state court’s denial of relief on these materially indistinguishable facts is
contrary to clearly established federal law. See Cudjo, 698 F.3d at 767-68.

The state court decision also runs afoul of the unreasonable application
clause of § 2254(d)(1). Lunbery, 605 F.3d 754, is instructive. In that case, a

woman was convicted of murdering her husband, based on her own
confession. At trial, she was not permitted to introduce evidence that

another man had killed her husband as part of a drug deal that had gone
bad. Id. at 757. A witness told the police that Henry Garza, who was
involved in the drug deal approached him at a pizza restaurant and said,

“That’s a bummer. My partners blew away the wrong dude.” Id.

After the California Supreme Court denied relief in a summary order,

the Ninth Circuit granted relief, finding that the ruling resulted in an
unreasonable application of the Supreme Court’s clearly established cases

guaranteeing the right to present evidence of third party culpability,
including Chambers and Crane. Id. at 760. The court concluded that the
exclusion of Garza’s statement was prejudicial to the defendant because it

“stripped her of evidence that someone other than she had probably

36

committed the murder . . .

Id. at 762. Although the defendant was able to

present a theory of third party culpability to the jury, that was “no substitute
for Garza’s admission that his partners committed the murder.” Id.

Likewise here, the exclusion of Miracle’s statements violated Ibarra’s
federal constitutional rights. Because § 2254(d) is satisfied based on the

state court record, relief is available. The Court should grant relief for the
same reasons that § 2254(d) is met. Frantz, 533 F.3d at 736 (“a holding on

habeas review that a state court error meets the § 2254(d) standard will often
simultaneously constitute a holding that the § 2254(a)/§ 2241 requirement [of
federal constitutional error] is satisfied as well . . . .”).

CONCLUSION

For the foregoing reasons, the Court should grant Ibarra’s petition,

reverse the judgment of the Ninth Circuit, and grant relief.
Respectfully submitted,

CUAUHTEMOC ORTEGA
Federal Public Defender

DATED: April 6, 2021
MARK R. DROZDOWSKI*
MICHAEL D. WEINSTEIN
Deputy Federal Public Defenders
Attorneys for Petitioner
* Counsel of Record

37

